HHS/OIG-Audit--"Review of Medicare Credit Balances in Wisconsin, (A-05-91-00128)"
Department of Health and Human Services
Office of Inspector General -- AUDIT
"Review of Medicare Credit Balances in Wisconsin," (A-05-91-00128)
May 7, 1992
Complete Text of Report is available in PDF format
(2.3 mb). Copies can also be obtained by contacting the Office of Public Affairs
at 202-619-1343.
EXECUTIVE SUMMARY:
This final audit report discloses that Medicare accounts receivable credit
balances included unidentified overpayments totaling an estimated $919,826 in
the State of Wisconsin. The overpayments occurred because both hospitals and
Blue Cross and Blue Shield United of Wisconsin (BCBSUW) did not adequately review
credit balances and process adjustments timely. We are recommending recovery
of the overpayments and procedural improvements to ensure that the hospitals
and BCBSUW perform more adequate and timely reviews.